           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



     AUDIT OF ENUMERATION
       AT BIRTH PROGRAM

   September 2001   A-08-00-10047




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

      Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
      Review and make recommendations regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

      Independence to determine what reviews to perform.
      Access to all information necessary for the reviews.
      Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                   ~        SECv
                                                                  Ci                             ~

                                                             ~

                                                             \~          IIIIII1                !<.~
                                                                       ~IS~I'-


                                           SOCIAL                       SECURITY

                                             Office   of   the           Inspector                                                    General

MEMORANDUM
           September    27,   2001                                                                                                                       ReferTo:   31270-23-226
To:        Larry G. Massanari
           Acting Commissioner
            of Social Security

           Inspector General

           Audit of Enumeration      at Birth Program        (A-O8-00-10047)
Subject:




           The attached final report presents the results of our audit. Our objectives were to
           determine whether ( 1) participating hospitals and Bureaus of Vital Statistics provide the
           Social Security Administration (SSA) accurate and reliable information under the
           Enumeration at Birth program and (2) SSA's internal controls adequately protect the
           integrity of the process.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.
                                                                                   '{
                                                                                            '
                                                                                                     ,i'
                                                                                                                 I
                                                                                                                     ;,~z;t!u.Loz/~
                                                                                        ,
                                                                                                           ;"v
                                                                                                 , James                                    G. Huse,   Jr.




           Attachment
                                                 Executive Summary
OBJECTIVE
The objectives of the audit were to determine whether (1) participating hospitals and
Bureaus of Vital Statistics (BVS) provide the Social Security Administration (SSA)
accurate and reliable information under the Enumeration at Birth (EAB) program and
(2) SSA’s internal controls adequately protect the integrity of the process.

BACKGROUND
Implemented in 1990, the EAB program assigns Social Security numbers (SSN) to
newborns, with parental approval, as part of States’ and certain jurisdictions’ birth
registration processes. SSA developed the EAB process in response to increased
demand for SSNs for children at earlier ages, especially for tax and other financial
requirements. SSA recognized that all the information needed to process an SSN
application for a newborn was captured during the hospital birth registration process.
Therefore, SSA contracted with State and certain jurisdiction BVSs to obtain birth
registration data. The birth registration data serve as evidence of age, identity, and
citizenship for purposes of assigning an SSN to a child. SSA designed EAB as a
convenient service option, saving parents the trouble of gathering necessary proof,
completing an SSN application, and visiting or mailing original documents to an SSA
field office (FO) for processing.

About 69 percent of the original SSNs SSA assigns annually are processed through the
EAB program. SSA estimates approximately 75 percent of newborns receive SSNs via
EAB. 1 During Fiscal Year (FY) 2000, SSA assigned about 4 million original SSNs to
newborns through the EAB process. As of September 1997, all 50 States, as well as
certain jurisdictions (Puerto Rico, New York City, and the District of Columbia),
participated in EAB.

Because the EAB program provides SSNs through the birth registration process, SSA’s
enumeration workload has significantly decreased since its implementation. The
FY 2000 unit cost of processing SSN applications submitted at FOs was $18.70.
Accordingly, the EAB program could save SSA about $60 million in administrative costs,
annually.2




1
    We did not determine the reliability of this data.
2
 According to SSA, it cost the Agency $18.70 in FY 2000 to process an SSN application taken by FO
personnel. Additionally, in FY 2000, SSA’s cost to process an EAB transaction was $3.74. Therefore, we
estimated savings as follows: $18.70 – $3.74 = $14.96 x 4 million = $59.84 million (rounded to
$60 million.)


Review of Enumeration at Birth Program (A-08-00-10047)                                               i
RESULTS OF REVIEW
We commend SSA for its innovation in implementing the EAB program. The
24 hospitals and 4 BVSs we reviewed generally provided accurate and reliable
enumeration data through EAB. However, because the SSN is so heavily relied upon in
today’s society and the potential for its misuse is so great, we believe SSA should
establish additional controls in the program. Although these measures may require
SSA to reinvest some of the savings realized through EAB in the program, we believe
these controls are essential to reduce the Agency’s vulnerability to SSN misuse and
enhance program efficiency.

SSA WAS VULNERABLE TO POTENTIAL ERROR AND/OR MISUSE
DUE TO LACK OF SEGREGATION OF DUTIES WITHIN HOSPITALS’
BIRTH REGISTRATION UNITS
The hospital birth registration units we visited lacked adequate segregation of duties to
ensure the proper collection of birth registration data. Clerks working within these units
were generally involved in all phases of the process. The clerks gathered information
needed to prepare the certificates of live birth, entered information into personal
computers, printed certificates, obtained parents’ and hospital certifiers’ signatures, and
forwarded the electronic and paper versions of the certificates to the BVSs. Hence, if
motivated to do so, these clerks could generate a certificate of live birth for a
nonexistent child.

To identify any additional controls that might be in place to compensate for the lack of
segregation of duties, we asked hospital personnel whether anyone periodically
reconciled birth statistics with the total number of hospital birth registrations.
Representatives from 20 of the hospitals reported they did not perform this type of
reconciliation. Representatives from the other four hospitals indicated they compared
statistics for birth registrations with other hospital data. However, we determined the
individuals who made the comparisons at three of these hospitals were not independent
of the birth registration process.

While our audit did not disclose any instances of suspected impropriety, we believe
some type of additional compensating controls, such as the periodic reconciliations
mentioned above, are needed to reduce the program’s vulnerability to potential error
and misuse.

SSA ASSIGNED MULTIPLE SSNS TO NEWBORNS
Our review of SSA’s Modernized Enumeration System (MES) Transaction History File
data for SSN cards issued to children age 1 year and under during Calendar Year
(CY) 1999 disclosed 178 instances where SSA assigned a child 2 different SSNs that
were not cross-referenced. We believe SSA assigned multiple SSNs to these children
for the following reasons:



Review of Enumeration at Birth Program (A-08-00-10047)                                    ii
•    system edits did not detect when duplicate SSN applications for a child were
     processed on the same day (for example, when there were minor differences in the
     names provided on the two applications);

•    system edits did not recognize SSNs previously assigned to children, usually
     because of minor differences in the names provided on the second applications;
     and

•    FO personnel failed to appropriately resolve system edit exceptions.

While we did not find evidence that these childrens’ SSNs had been used for
unauthorized purposes, we are still concerned about SSA’s vulnerability in cases of this
nature. In fact, SSA considers such cases “critical errors” when calculating its annual
SSN accuracy rate. 3

UNTIMELY TRANSMISSION OF BIRTH RECORDS COULD DIMINISH
THE EFFECTIVENESS OF THE EAB PROCESS
Some BVSs did not transmit birth records to SSA within the time frame specified in
contracts executed by both SSA and the States/jurisdictions. In fact, during CYs 1999
and 2000, 21 (40 percent) of the 53 participating BVSs did not transmit birth records to
SSA within an average of 30 days of the child’s date of birth, as required by their
contracts. As a result, some parents became impatient and applied for SSNs again at
SSA FOs.

Our analysis of the MES data extract we obtained for CY 1999 disclosed
67,206 instances, nationwide, in which parents submitted a second SSN application
when they did not receive the card through EAB within 30 days of the child’s date of
birth.4 Based on unit cost data obtained from SSA, we estimate it cost the Agency
approximately $1.26 million to process these second SSN requests through its FOs.5 If
the timeliness of EAB application submissions does not improve, and all variables
remain constant, SSA may reduce the savings otherwise realized from the EAB
program by approximately $12.6 million between CYs 2000 and 2009. Because the
trend in issuance of SSN cards via the EAB program during the last 3 years indicates a

3
 SSA’s Office of Quality Assurance within the Office of the Deputy Commissioner for Finance,
Assessment and Management defines a “critical error” as either a misassigned number or the assignment
of multiple numbers which are not properly cross-referenced.
4
  We identified the 67,206 instances by analyzing the CY 1999 MES Transaction History File data extract.
Specifically, we identified all “original” SSNs FOs issued to children 1-year-old and under in CY 1999 that
also had corresponding “replacement” transactions processed through EAB. We then eliminated those
transactions in which parents applied for original SSNs at FOs within the 30-day period allowed by the
contract.
5
 According to SSA, in FY 2000, it cost the Agency $18.70 to process an SSN application taken by FO
personnel. Therefore, we calculated our estimate as follows: 67,206 x $18.70 = $1,256,752 rounded to
$1.26 million.


Review of Enumeration at Birth Program (A-08-00-10047)                                                   iii
slight increase from year to year (3.59 million in FY 1998, 3.65 million in FY 1999, and
3.82 million in FY 2000), we believe the use of CY 1999 data in calculating the 10-year
estimate results in a conservative amount.

The EAB Project Officer informed us that he continually monitors BVS processing times
and, in September 2000, an SSA Contract Specialist contacted 10 of the BVSs with
slower submission averages to encourage more timely submissions. As of
December 31, 2000, the average processing times for these 10 BVSs still ranged from
40 to 111 days. At the exit conference, the EAB Project Officer provided us additional
data for the 3-month period ended July 27, 2001 that indicated 7 of the 10 BVSs still
had not complied with their contracts at that time.6 The average processing times for
the seven BVSs still ranged from 32 days to 148 days, with the average being 63 days.
Accordingly, we believe SSA should continue to work with these BVSs to reduce their
processing times.

CONCLUSIONS AND RECOMMENDATIONS
The birth registration data provided to SSA by the test hospitals and BVSs was
generally accurate and reliable. However, weaknesses exist in controls and operations
that we believe SSA needs to address to reduce the EAB program’s vulnerability to
potential error and misuse and to enhance program efficiency.

We recommend that SSA:

•       Re-invest some of the savings realized by the EAB program and provide necessary
        funding, during future contract modifications, for the BVSs to perform periodic,
        independent reconciliations of registered births with statistics obtained from
        hospitals’ labor and delivery units and periodically verify the legitimacy of sample
        birth records obtained from hospitals.

•       Enhance its duplicate record detection and prior SSN detection routines to provide
        greater protection against the assignment of multiple SSNs.

•       Instruct FO personnel to exercise greater care when resolving enumeration
        feedback messages generated by the system.

•       Cross-reference multiple SSNs SSA assigned to the 178 children within our
        sample. We will provide further details regarding these individuals under separate
        cover.

•       Continue to monitor the timeliness of BVS submissions and work with those BVSs
        having difficulty complying with the time frames specified in the contracts.



6
    We did not determine the reliability of this data.


Review of Enumeration at Birth Program (A-08-00-10047)                                       iv
AGENCY COMMENTS
SSA agreed with all of our recommendations. The Agency also provided technical
comments that we considered and incorporated, where appropriate. The full text of
SSA’s comments is included in Appendix B.




Review of Enumeration at Birth Program (A-08-00-10047)                              v
                                                          Table of Contents
                                                                                                              Page

INTRODUCTION .................................................................................................... 1

RESULTS OF REVIEW.......................................................................................... 4

SSA WAS VULNERABLE TO POTENTIAL ERROR AND/OR MISUSE
DUE TO LACK OF SEGREGATION OF DUTIES WITHIN HOSPITALS’
BIRTH REGISTRATION UNITS ............................................................................. 4

SSA ASSIGNED MULTIPLE SSNS TO NEWBORNS............................................ 5

UNTIMELY TRANSMISSION OF BIRTH RECORDS COULD DIMINISH
THE EFFECTIVENESS OF THE EAB PROCESS ................................................. 7

CONCLUSIONS AND RECOMMENDATIONS ...................................................... 9

AGENCY COMMENTS .......................................................................................... 9

OTHER MATTERS............................................................................................... 10

SSA ASSIGNED SSNs TO CHILDREN WHOSE FIRST NAMES WERE
“INFANT” OR “BABY”........................................................................................... 10

PARENTS’ REQUESTS FOR SSNs NOT ALWAYS ADEQUATELY
DOCUMENTED.................................................................................................... 10

APPENDICES

Appendix A – Summary of Multiple SSN Cases Identified in Four Test States

Appendix B – Agency Comments

Appendix C – OIG Contacts and Staff Acknowledgements




Review of Enumeration at Birth Program (A-08-00-10047)
                                                         Acronyms
    BVS            Bureau of Vital Statistics
    CY             Calendar Year
    EAB            Enumeration at Birth
    EFM            Enumeration Feedback Message
    FO             Field Office
    FY             Fiscal Year
    MES            Modernized Enumeration System
    OIG            Office of the Inspector General
    SSA            Social Security Administration
    SSN            Social Security Number




Review of Enumeration at Birth Program (A-08-00-10047)
                                                                 Introduction
OBJECTIVE
The objectives of the audit were to determine whether (1) participating hospitals and
Bureaus of Vital Statistics (BVS) provide the Social Security Administration (SSA)
accurate and reliable information under the Enumeration at Birth (EAB) program and
(2) SSA’s internal controls adequately protect the integrity of the process.

BACKGROUND
Implemented in 1990, the EAB program assigns Social Security numbers (SSN) to
newborns, with parental approval, as part of States’ and certain jurisdictions’ birth
registration processes. SSA developed EAB in response to increased demand for
SSNs for children at earlier ages, especially for tax and other financial requirements.
SSA recognized that all the information needed to process an SSN application for a
newborn was captured during the hospital birth registration process. Therefore, SSA
contracted with State and certain jurisdiction BVSs to obtain birth registration data. The
birth registration data serve as evidence of age, identity, and citizenship for purposes of
assigning an SSN to a child.

                          SSA designed EAB as a convenient service option for parents to
 SSA Assigned             complete an SSN application. About 69 percent of the original
 4 Million                SSNs assigned by SSA annually are processed through the
 Original SSNs            EAB program. SSA estimates approximately 75 percent of
 Through EAB in           newborns receive SSNs via EAB.1 During Fiscal Year
 FY 2000                  (FY) 2000, SSA assigned about 4 million original SSNs to
                          newborns via EAB. As of September 1997, all 50 States, as well
as certain jurisdictions (Puerto Rico, New York City, and the District of Columbia),
participated in EAB.

Because the EAB program provides SSNs through the birth registration process, SSA’s
enumeration workload has significantly decreased since its implementation. The
FY 2000 unit cost of processing SSN applications submitted at field offices (FO) was
$18.70. Accordingly, the EAB program could save SSA about $60 million in
administrative costs, annually.2




1
    We did not determine the reliability of this data.
2
 According to SSA, it cost the Agency $18.70 in FY 2000 to process an SSN application taken by FO
personnel. Additionally, in FY 2000, SSA’s cost to process an EAB transaction was $3.74. Therefore, we
estimated savings as follows: $18.70 – $3.74 = $14.96 x 4 million = $59.84 million (rounded to
$60 million.)


Review of Enumeration at Birth Program (A-08-00-10047)                                               1
SCOPE AND METHODOLOGY
To accomplish our objectives, we reviewed applicable laws,3 regulations,4 and SSA
procedures.5 In addition, we held discussions with SSA Headquarters personnel and
made site visits to BVSs and 24 hospitals located in California, Florida, Texas, and
Virginia. We selected these States for review based on the number of EAB
submissions, timeliness of submissions to SSA, and geographic location. Factors we
considered in selecting the hospitals included the number of EAB submissions, type of
facility (that is, public or private), and geographic location.

We interviewed personnel at each of the four BVSs to obtain an understanding of the
procedures they followed in processing both paper and electronic versions of birth
certificates received from the hospitals and transmitting the EAB records to SSA’s
National Computer Center. In addition, we interviewed hospital personnel to obtain an
understanding of the processes they followed to collect birth registration information on
newborns, prepare birth certificates, and transmit both paper and electronic versions of
the certificates to the BVSs. During the site visits, we also verified birth registration data
obtained from the BVSs against the hospitals’ records for 890 newborns whose parents
elected to use the EAB process. We randomly selected these records from 29,943 EAB
applications processed by the 4 BVSs during the quarter ended December 31, 1999. At
each location, we inquired about controls in place to ensure the integrity of the birth
registration data.

In conjunction with the audit, we obtained SSA’s Modernized Enumeration System
(MES) Transaction History File data for children age 1 year and under whom SSA
issued original and/or replacement SSN cards during Calendar Year (CY) 1999. After
standardizing the mailing addresses, we identified addresses in our test States
(California, Florida, Texas, and Virginia) that received multiple SSN cards. We then
reviewed these matches to identify situations where SSA assigned a child more than
one SSN and situations indicative of possible SSN misuse.

We also assessed the participating States’ and other jurisdictions’ timeliness in
submitting birth registration data to SSA. Using the data extracted from MES for
CY 1999, we calculated an estimate of the savings SSA may not realize between
CYs 2000 and 2009 if States and other jurisdictions do not reduce their processing
times.




3
    Section 205 [42 U.S.C. 405] (c)(2)(B)(i) and (ii) of the Social Security Act, as amended.
4
    20 C.F.R. § 422.103 (b) and (c)
5
    Program Operations Manual System (POMS), sections RM 00202.001 and RM 00202.035.


Review of Enumeration at Birth Program (A-08-00-10047)                                          2
The SSA entities audited were the Office of Public Service and Operations Support
under the Deputy Commissioner for Operations and the Office of Systems Analysis
under the Deputy Commissioner for Systems. We performed our audit field work from
January 2000 through April 2001. We conducted our audit in accordance with generally
accepted government auditing standards.




Review of Enumeration at Birth Program (A-08-00-10047)                             3
                                                    Results of Review
The procedures followed by the 24 hospitals and 4 BVSs we visited were generally
adequate to ensure the accuracy of birth registration data provided to SSA for the
enumeration of newborn children. However, we identified weaknesses in existing
controls and operations we believe SSA needs to address to reduce the EAB program’s
vulnerability to potential error and/or misuse and to enhance program efficiency.

SSA WAS VULNERABLE TO POTENTIAL ERROR AND/OR MISUSE
DUE TO LACK OF SEGREGATION OF DUTIES WITHIN HOSPITALS’
BIRTH REGISTRATION UNITS

                                   In all of the hospitals we visited, we noted there was a
 Hospital Clerks Were              lack of segregation of duties within the hospitals’ birth
 Involved in All Aspects           registration units. Generally, the clerks in these units
 of the Registration               were involved in all aspects of the process. The lack of
 Process                           separation of duties increases the likelihood that errors
                                   or irregularities could occur within the EAB program
without being detected in a timely manner. Additionally, it is possible that a clerk could
generate a certificate of live birth for a nonexistent child.

Personnel working in the hospitals’ birth registration units gathered information needed
to prepare certificates of live birth from hospital records (for example, labor and delivery
logs) and from the childrens’ parents. After keying the information into the personal
computers and printing the certificates, they asked the parents to verify the accuracy of
the data and sign the certificates. They then obtained the signatures of the attending
physicians or other hospital certifiers and forwarded the electronic and paper versions of
the certificates to the BVS.

Internal controls serve as a first-line defense in safeguarding assets and preventing and
detecting errors and fraud. One commonly used control activity is the segregation of
duties. Under this concept, no one individual should control all key aspects of a
process, transaction or event. Staff size limitations may obstruct efforts to properly
segregate duties. However, compensating controls should be implemented in such
instances.

We believe a periodic reconciliation of birth statistics with the total number of hospital
birth registrations could serve as a compensating control. Accordingly, we asked
hospital personnel if anyone performed such reconciliations. Hospital representatives at
20 of the hospitals reported they did not perform such reconciliations. Representatives
of the other four hospitals indicated they compared statistics for birth registrations with
other hospital data. However, we determined the individuals who made the
comparisons at three of these hospitals were not independent of the birth registration
process.



Review of Enumeration at Birth Program (A-08-00-10047)                                         4
Although we did not identify any apparent instances of impropriety, we believe
additional controls are needed to compensate for the lack of segregation of duties within
the hospitals’ birth registration units. We further believe that periodic, independent
reconciliations similar to those described above would satisfy this need. In addition, we
believe it would be most desirable for an independent party within the BVSs to perform
the reconciliations. To do so would necessitate the BVSs obtaining statistical
information from the hospitals’ labor and delivery units, but it would provide protection
against internal error and/or misuse at both the hospital and BVS levels.

Our audit also showed that neither SSA nor the BVSs verified the legitimacy of birth
registration data the hospitals submitted. SSA accepts the birth registration data
received from the BVSs as evidence of a child’s age, citizenship, and identity.

SSA’s policy requires applicants for SSNs to provide evidence of age, citizenship, and
identity.6 A birth certificate is considered acceptable evidence of age and citizenship,
but not identity. This policy is true for newborns as well as other children and adults
who are enumerated through field office input. Such applicants are required to provide
other forms of evidence to prove identity. Examples of acceptable identity documents
for newborns are vaccination and medical records.

Accordingly, we believe there is also a need for some form of verification of birth
information provided by the hospitals. Such verification could be accomplished by
requesting that the hospital’s labor and delivery units verify a sample of births when
providing statistical information needed to perform the reconciliation mentioned above.
We believe such verifications, coupled with a reconciliation, would greatly enhance
protection against possible error and misuse.

SSA ASSIGNED MULTIPLE SSNS TO NEWBORNS
Our analysis of records contained in SSA’s MES Transaction History File for children
age 1 and under who received SSN cards during CY 1999, disclosed 178 instances
where the Agency assigned a child 2 unique SSNs that were not cross-referenced to
each other. We believe SSA erroneously assigned these children more than one SSN
for the following reasons:

•      system edits did not detect when duplicate SSN applications for a child were
       processed on the same day (for example, when there were minor differences in the
       names provided on the two applications);

•      system edits did not recognize SSNs previously assigned to children, usually
       because of minor differences in the names provided on the second applications;
       and


6
    POMS, section RM 00203.001.


Review of Enumeration at Birth Program (A-08-00-10047)                                     5
•   FO personnel failed to appropriately resolve system edit exceptions.

Assignment of more than one SSN to an individual causes concern because of the
opportunity it creates for program abuse and/or identity fraud. In fact, SSA considers
such cases “critical errors” when calculating its annual SSN accuracy rate.7 Each of the
three causes for the assignment of the multiple SSNs is discussed in greater detail in
the following sections. Appendix A also contains additional information about the
178 cases (such as the sources of the SSN requests).

Duplicate Record Detection Routine

When SSA’s MES processes each SSN application, the system runs an “edit routine” to
determine whether any duplicate applications were submitted on the same date. In
doing so, MES compares certain positions of the applicants’ first and last names and
dates of birth with other applications processed that day. Additionally, the edit routine
compares birth certificate numbers for records submitted via the EAB process.
However, the duplicate record detection routine does not consider two SSN applications
to be duplicates unless these data fields match exactly. For example, if the birth
certificate numbers for two EAB records are different, the records are not treated as
possible duplicates even if the other data fields are identical.

In 17 cases we identified, where both records were entered into MES on the same date,
the matched records contained identical applicant names and dates of birth but different
birth certificate numbers. Therefore, MES did not recognize them as duplicates. In six
other cases, MES failed to recognize the records as possible duplicates because of a
variance of one or two characters in the applicants’ names.

We believe SSA needs to enhance its duplicate record detection routine to provide
greater assurance of identifying duplicate requests submitted on the same day.

Previously Assigned SSN Detection Routine

Once a record passes the duplicate record detection routine, MES searches its SSN
master file for SSNs the Agency may have previously assigned the applicant. During
the search, the system compares numerous fields of data on the incoming record with
the master file.

Our audit disclosed 93 instances where system edits failed to identify an SSN
previously assigned to a child. In each of these cases, there was a variance of only one
or two characters in the applicants’ first names as shown on the matched records. We
believe SSA needs to enhance its search routine to provide greater assurance of
identifying previously assigned SSNs.

7
 SSA’s Office of Quality Assurance within the Office of the Deputy Commissioner for Finance,
Assessment and Management defines a “critical error” as either a misassigned number or the assignment
of multiple numbers which are not properly cross-referenced.



Review of Enumeration at Birth Program (A-08-00-10047)                                              6
Inappropriate Resolution of Enumeration Feedback Messages

In 62 of the 178 cases, the system generated an Enumeration Feedback Message
(EFM) on 1 or both of the matched records. In 8 of the 62 cases, the EFMs were
generated because the applicants alleged having previously applied for or received
SSN cards. In the other 54 cases, the EFMs were generated because the system found
a record on the SSN master file containing applicant information similar to that shown
on the incoming record.

It should be noted that in 44 of the 62 cases, the applicant names on the matched
records were identical. In five of the cases, the applicants’ names were identical except
for the suffixes. Furthermore, while there were some differences in the applicants’
middle names in the other cases, the first and last names were identical. For example,
in some cases, one record contained a middle name while the other record either
contained a middle initial or no middle name at all.

In conclusion, we believe FO personnel need to exercise greater care when resolving
EFMs. In addition, we believe FO personnel need to establish the practice of querying
the SSN master file when resolving EFMs to ensure the applicants have not already
been assigned an SSN.

UNTIMELY TRANSMISSION OF BIRTH RECORDS COULD DIMINISH
THE EFFECTIVENESS OF THE EAB PROCESS
Some BVSs did not transmit birth records to SSA within the time frame specified in the
contracts executed by SSA and the States/jurisdictions. As a result of the slow
transmissions, some parents became impatient and applied for their childrens’ SSNs
through SSA’s FOs even though the SSNs were previously requested using the EAB
process.

Our analysis of the MES data extract we obtained for CY 1999 disclosed
67,206 instances, nationwide, in which parents submitted a second SSN application at
an SSA FO when they did not receive the card through EAB within 30 days of the child’s
date of birth.8 Based on unit cost data obtained from SSA, we estimate it costs the
Agency approximately $1.26 million to process these second SSN requests.9 If the
timeliness of EAB application submissions does not improve, and all variables remain
constant, SSA may reduce the savings otherwise realized from the EAB program by
approximately $12.6 million between CYs 2000 and 2009. Because the trend in
8
  We identified the 67,206 instances by analyzing the CY 1999 MES Transaction History File data extract.
Specifically, we identified all “original” SSNs FOs issued to children 1-year-old and under in CY 1999 that
also had corresponding “replacement” transactions processed through EAB. We then eliminated those
transactions in which parents applied for original SSNs at FOs within the 30-day period allowed by the
contract.
9
 According to SSA, in FY 2000 it cost the Agency $18.70, to process an SSN application taken by FO
personnel. Therefore, we calculated our estimate as follows: 67,206 x $18.70 = $1,256,752 rounded to
$1.26 million.


Review of Enumeration at Birth Program (A-08-00-10047)                                                    7
issuance of SSN cards via the EAB program during the last 3 years indicates a slight
increase from year to year (3.59 million in FY 1998, 3.65 million in FY 1999, and
3.82 million in FY 2000), we believe the use of CY 1999 data in calculating the 10-year
estimate results in a conservative amount.

Section F.2. of SSA’s standard contract with each of the participating States and
jurisdictions requires the BVSs to transmit files containing birth certificate data to SSA
with sufficient frequency to ensure the data are received within an average of
30 calendar days from the date of birth of the individuals for whom enumeration has
been requested. Review of statistical data provided by the EAB Project Officer showed
that 21 BVSs failed to comply with this contract provision during CYs 1999 and 2000.
Two of our 4 test states, Virginia and Florida, were included in the 21 BVSs for each
year.

Average processing times for the 21 BVSs ranged from 31 to 85 days during
CY 2000 and 31 to 108 days during CY 1999. The average processing time for the
21 BVSs during CY 2000 was 50.2 days as compared to 47.3 for CY 1999, an increase
of 6 percent over the previous year.

We believe the untimely transmissions by the BVSs could diminish the effectiveness of
the EAB process. The additional SSN requests parents made at the FOs increase the
FOs’ workloads. Duplication of costs also occurs because SSA is contractually
obligated to reimburse the BVSs for the birth data even though they are no longer
needed to assign the childrens’ SSNs. In addition to cost, untimely submissions result
in reduced customer program satisfaction because the parents don’t receive the SSN
cards as soon as they want or need them.

The EAB Project Officer informed us he continually monitors the BVS processing times,
and, in September 2000, an SSA Contract Specialist contacted 10 of the BVSs with
slower submission averages to encourage more timely submissions. As of
December 31, 2000, the average processing times for these 10 BVSs ranged from 40 to
111 days. At the exit conference, the EAB Project Officer provided us additional data
for the 3-month period ended July 27, 2001 that indicated 7 of the 10 BVSs still had not
complied with their contracts at that time.10 The average processing times for the
7 BVSs ranged from 32 days to 148 days, with the average being 63 days. Accordingly,
we believe SSA should continue to work with these BVSs to reduce their processing
times.




10
     We did not determine the reliability of this data.


Review of Enumeration at Birth Program (A-08-00-10047)                                       8
                                           Conclusions and
                                          Recommendations
The birth registration data provided by the hospitals and BVSs we visited were generally
accurate and reliable. However, review of the procedures and related controls
employed by the hospitals, cognizant BVSs, and SSA disclosed the need for SSA to
establish additional controls to reduce the EAB program’s vulnerability to potential error
and misuse and to enhance program efficiency.

We recommend that SSA:

1. Re-invest some of the savings realized by the EAB program and provide necessary
   funding, during future contract modifications, for the BVSs to perform periodic,
   independent reconciliations of registered births with statistics obtained from
   hospital’s labor and delivery units and to periodically verify the legitimacy of sample
   birth records obtained from the hospitals.

2. Enhance its duplicate record detection and prior SSN detection routines to provide
   greater protection against the assignment of multiple SSNs.

3. Instruct FO personnel to exercise greater care when resolving EFMs generated by
   the system.

4. Cross-reference multiple SSNs SSA assigned to the 178 children within our sample.
   We will provide further details regarding these individuals to SSA under separate
   cover.

5. Continue to monitor the timeliness of BVS submissions and work with those BVSs
   that are having difficulty complying with the time frames specified in the contracts.

AGENCY COMMENTS
SSA agreed with all of our recommendations. The Agency also provided technical
comments that we considered and incorporated, where appropriate. The full text of
SSA’s comments is included in Appendix B.




Review of Enumeration at Birth Program (A-08-00-10047)                                       9
                                                           Other Matters
SSA ASSIGNED SSNs TO CHILDREN WHOSE FIRST NAMES WERE “INFANT” OR
“BABY”

Analysis of MES Transaction History File data for CY 1999 for the 4 test States
disclosed 74 instances where SSA assigned a child with the first name of “Infant” or
“Baby” an SSN through the EAB program. While SSA’s contracts with the BVSs
provides that a birth record for a newborn child shall not be transmitted to SSA where
the parents have not named the child, SSA has not implemented edits to detect
unacceptable names such as Baby Jones. Therefore, we believe SSA needs to
implement automated edits to identify such records and prevent the assignment of
SSNs to unnamed children.

PARENTS’ REQUESTS FOR SSNs NOT ALWAYS ADEQUATELY DOCUMENTED

Section C.2.A. of SSA’s contracts with the BVSs requires the BVSs to record the
parent’s request for an SSN on either the birth registration document or another official
record of the jurisdiction. Each of the four BVSs we visited had designed their birth
certificates to capture the parent’s request. However, during our review of
documentation for sample births, we noted 18 instances where the parents had not
signed the birth certificates to authorize the request for the SSNs. Without the parents’
signatures, SSA does not have the proper authority to assign new SSNs to the children.

We believe the BVSs failed to detect the lack of signatures on the birth certificates due
to clerical oversight. Therefore, we encourage SSA to instruct the BVSs to
re-emphasize to their personnel the need to ensure that parents have signed the
certificates.




Review of Enumeration at Birth Program (A-08-00-10047)                                   10
                                      Appendices




Review of Enumeration at Birth Program (A-08-00-10047)
                                                                      Appendix A
SUMMARY OF MULTIPLE SOCIAL SECURITY NUMBER
CASES IDENTIFIED IN FOUR TEST STATES
The following table indicates whether (1) the two Social Security number (SSN)
applications in each match originated solely from the enumeration at birth (EAB)
process or from a combination of the EAB process and field office (FO) input; (2) the
two applications in each match were entered into the Social Security Administration’s
Modernized Enumeration System (MES) on the same or different dates; or (3) MES
generated an enumeration feedback message (EFM) for these transactions.


                             Two SSNs Assigned           Two SSNs Assigned              Total
                             to Newborn Via EAB           to Same Child Via             Cases
                                     On:                 EAB & FO Input On:              By
                                Same     Different        Same    Different   Total     State
                                 Day        Day            Day      Day

California      EFM                2             0         4         27       33

                No EFM             0             0         1         35       36         69

Florida         EFM                0             0         3          8       11

                No EFM            16             0         1         30       47         58

Texas           EFM                2             7         1          7       17

                No EFM             2             6         1         15       24         41

Virginia        EFM                0             0         0          1        1

                No EFM             1             0         1          7        9         10


                  TOTAL           23            13         12       130       178




Review of Enumeration at Birth Program (A-08-00-10047)
                  Appendix B

Agency Comments
                                       SOCIAL         SECURI1Y

MEMORANDUM


Date:                                                                          Refer To: S 1]3
          September    24,   2001

To:       JamesG. Ruse, Jr.
          Inspector General

From:     Larry a. Massanari


Subject   Office of the Inspector General (OIG) Draft Report: "Audit of Enumeration at Birth Program"
          (A-O8-00-10047)-INFORMA TION


          We appreciateola's efforts in conducting this review. Our comments on the report
          recommendations are attached.

          Staff questionsmay be referred to Dan Sweeneyon extension 51957.

          Attachment
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“AUDIT OF ENUMERATION AT BIRTH PROGRAM” (A-08-00-10047)

Recommendation 1

Reinvest some of the savings realized by the Enumeration at Birth (EAB) program and provide
necessary funding, during future contract modifications, for the Bureaus of Vital Statistics (BVS)
to perform periodic independent reconciliations of registered births with statistics obtained from
hospital’s labor and delivery units and to periodically verify the legitimacy of sample birth
records obtained from the hospitals.

Comment

We agree in principle with this recommendation. Current EAB contracts expire on
December 31, 2002. Negotiations for the new EAB contracts with the States are expected to
begin in June 2002. The new EAB contracts will take effect on January 1, 2003, and will most
likely continue through December 31, 2007. We will propose the recommended review to the
States in this contract negotiation.

Recommendation 2

Enhance its duplicate record detection and prior Social Security number (SSN) detection routines
to provide greater protection against the assignment of multiple SSNs.

Comment

We agree on the issue of duplicate record detection. The Agency’s 5-year Systems Plan Steering
Committee will discuss the scheduling priority for a systems exception to prevent the assignment
of multiple SSNs for identical cases with different birth certificate numbers. The next meeting of
the Steering Committee will take place in the first quarter of fiscal year 2002.

We agree that there are cases where a subsequent SSN application is not identified due to minor
changes to the names. We will look at the detection routines and practices to see whether there
are feasible software modifications to the Automated Enumeration Screening Process that would
provide greater protection.

Recommendation 3

Instruct FO personnel to exercise greater care when resolving enumeration feedback messages
(EFM) generated by the system.

Comment

We agree. The Office of Operations plans to release within 90 days an Emergency Message
(EM) to the regions and field offices on enumeration issues. The message will include a
reminder to exercise greater care in resolving EFMs.



Review of Enumeration at Birth Program (A-08-00-10047)                                        B-2
Recommendation 4

Cross-reference multiple SSNs assigned to the 178 children within our sample.

Comment

We agree. We expect to complete cross-referencing the 178 cases by the end of November 2001.
In addition, we will review the cases to determine if further refinements can be made to the
systems edit routine to prevent the assignment of duplicate SSNs. We expect to complete this
review and determine whether any additional systems refinements are warranted by the end of
December 2001. We will also include a reminder in the EM mentioned above to follow existing
instructions for cross-referencing duplicate SSNs.

Recommendation 5

Continue to monitor the timeliness of BVS submissions and work with those BVSs that are
having difficulty complying with the time frames specified in the contracts.

Comment

We agree with this recommendation, and have taken a number of actions with the States to assist
them in complying with current contract timeframes.

We have attended a national yearly conference of all State registrars and have presented EAB
findings to the participants on several occasions. On August 22, 2000, we established a
Frequently Asked Question (FAQ) on SSA’s Internet site - “How long does it take to get a Social
Security card for a newborn?” The site's response for this question provides each State's average
processing times for the public and for the States to compare their performance against other
States. This site is updated monthly.

Our regional offices receive management information reports for every EAB file submission by
their respective States. The regions use these reports to monitor and keep in constant contact
with their respective States regarding file submissions and average processing times.
Additionally, on several occasions, the Office of Acquisitions and Grants has sent performance
letters to the State Registrars to remind them of the contract timeframe requirements and their
need to improve their performance. Most recently, we have worked with our regional offices to
explore with States possible methods to reduce their processing times.

Average age is a moving target that is dependent on many factors in the States. Lack of state
funding, inability to hire staff and keying backlogs all enter into this delicate equation. We,
therefore, take 3-month snapshots and work with the States with average processing times over
30 days. We have been very successful in many States in reducing average processing times
below the 30-day national average. In reference to the 10 jurisdictions/States cited in the report
for higher average processing times, we successfully reduced the times for six
jurisdictions/States (District of Columbia from 64 to 39 days, Louisiana from 65 to 44 days,




Review of Enumeration at Birth Program (A-08-00-10047)                                          B-3
Mississippi from 68 to 32 days, Montana from 108 to 24 days, New Jersey from 71 to 21 days,
and Oklahoma from 71 to 22 days).

We do still have several States that are consistently above the 30-day average and we hope to
offer them solutions to bring their processing times into contract compliance. One example of
our recent activities is a proposed process to have Illinois reduce its processing time by sending
us birth information with a control number rather than waiting for a birth certificate number to
be assigned. This should significantly reduce Illinois' average processing time from a current
56 days to under 30 days. Illinois will require a minimum of 6 months to implement the new
programming for this process. Our Atlanta regional office is currently working with State
Registrars in North Carolina and Kentucky to reduce their average processing times. Both States
suffer from lack of funding and inability to hire staff. North Carolina has recently hired more
temporary staff to help reduce their keying backlog, and Kentucky is working on a plan for 2003
to fully automate their birth and death processing.

We will continue to monitor all States' processing times, and discuss with States any problems
causing the high processing times and possible methods for resolving them.

Other Matters

Regarding EAB transmission of unnamed birth certificate information, a proposal for changes to
prevent the assignment of SSNs to children with the first name of "Infant" or "Baby" will be
submitted within 90 days by the Office of Operations to the 5-year Systems Plan Steering
Committee. Additionally, for the 2003 contracts, we will negotiate a specific contract provision
that states unnamed children (including those with the first name of "Infant" or "Baby") are an
exception to EAB processing.

Regarding the lack of signatures on the birth certificates, we will include language in the
2003 contracts that hospitals must record the parent’s request for an SSN on either the birth
registration document or another official record of the jurisdiction.




Review of Enumeration at Birth Program (A-08-00-10047)                                          B-4
                                                                        Appendix C

OIG Contacts and Staff Acknowledgements

OIG Contacts
   Kimberly Byrd, Acting Director, Operations Audit Division, (205) 801-1605

   Cliff McMillan, Senior Auditor, (205) 801-1602

Acknowledgments
In addition to those named above:

   Theresa Roberts, Auditor

   Kathy Youngblood, Senior Auditor

   Jeff Pounds, Senior Program Analyst

   Charles Lober, Senior Auditor

   Reginia Grider, Senior Auditor

   Kimberly Beauchamp, Writer/Editor


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-08-00-10047.




Review of Enumeration at Birth Program (A-08-00-10047)
                           DISTRIBUTION SCHEDULE

                                                                             No. of
                                                                            Copies

Commissioner of Social Security                                                  1
Management Analysis and Audit Program Support Staff, OFAM                       10
Inspector General                                                                1
Assistant Inspector General for Investigations                                   1
Assistant Inspector General for Executive Operations                             3
Assistant Inspector General for Audit                                            1
Deputy Assistant Inspector General for Audit                                     1
 Director, Systems Audit Division                                                1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders                                                         25
Income Maintenance Branch, Office of Management and Budget                       1
Chairman, Committee on Ways and Means                                            1
Ranking Minority Member, Committee on Ways and Means                             1
Chief of Staff, Committee on Ways and Means                                      1
Chairman, Subcommittee on Social Security                                        2
Ranking Minority Member, Subcommittee on Social Security                         1
Majority Staff Director, Subcommittee on Social Security                         2
Minority Staff Director, Subcommittee on Social Security                         2
Chairman, Subcommittee on Human Resources                                        1
Ranking Minority Member, Subcommittee on Human Resources                         1
Chairman, Committee on Budget, House of Representatives                          1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        97
              Overview of the Office of the Inspector General

                                       Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers Act of 1990, assess whether SSA’s financial
statements fairly present the Agency’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs. OA also conducts short-term management and program evaluations focused
on issues of concern to SSA, Congress, and the general public. Evaluations often focus
on identifying and recommending ways to prevent and minimize program fraud and
inefficiency.

                              Office of Executive Operations
OEO supports the OIG by providing information resource management; systems
security; and the coordination of budget, procurement, telecommunications, facilities
and equipment, and human resources. In addition, this office is the focal point for the
OIG’s strategic planning function and the development and implementation of
performance measures required by the Government Performance and Results Act.
OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA,
as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates
responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                                 Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
